No.
IN THE
SUPREME COURT OF THE UNITED STATES

TERRENCE LAVARON THOMAS - PETITIONER,
VS.
MICHIGAN - RESPONDENT(S),

PROOF OF SERVICE
I, TERRENCE LAVARON THOMAS, do swear or declare that on this date,

, 2021 ,

as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served. By depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614,
Department of Justice,
950 Pennsylvania Ave.,
N.W., Washington, D. C. 20530-0001.

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

, 2021

(Signature)
33

